                                                    OFFICE OF INSPECTOR GENERAL

                                                                              MEMORANDUM




DATE:           January 19, 2001

TO:             Chairman

FROM:           Inspector General

SUBJECT:        Report on Special Review of Web Page Accessibility

The Office of Inspector General (OIG) has completed a Special Review to evaluate the accessibility of
Commission Web sites by those persons with disabilities. A copy of our Special Review Report,
entitled “Report on Special Review of Web Accessibility”, is attached. The objective of this special
review was to determine whether Commission web sites are accessible to disabled users. We sought to
determine if the Commission would be able to implement Federal standards related to web accessibility
when they become effective next year. To accomplish the objectives of our review, we first reviewed
its program on disability rights. Next, to determine the Commission’s compliance Federal laws and
standards, we tested over three hundred FCC Internet web pages using a series of automated tools.

In our opinion, the Commission has a proactive and effective web accessibility program supported by
the Disabilities Rights Office (DRO) within the Consumer Information Bureau (CIB), the Office of
Media Relations (OMR), and the Information Technology Center (ITC). To test its effectiveness, we
used a suite of web accessibility tools to test over three hundred (300) FCC Internet pages. We found
accessibility issues in thirty-one (31) web pages. Some of the accessibility problems identified may
make these pages difficult or impossible for a disabled person to use. As a result of the observations
made during our review, we recommend that the Commission correct the identified problems, continue
its active accessibility program, and focus its attention upon instituting a system to make sure that its
Internet web pages are accessible to everyone, including those with disabilities.

In a joint response to the draft report, the Chief - CIB, the Director - OMR and the Managing Director
concurred with our findings. They stated that “OMR and the Information Technology Center (ITC) will
ask the developers responsible for the identified pages to review and fix the accessibility problems
within 90 days, or submit a work plan and time table by February 1, 2001 for revising the pages.”
Also, they pointed out the specific sections in the Commission’s Systems Development Life Cycle that
relate to web accessibility laws and regulations. We have included a copy of the joint response in its
entirety as Appendix 2 to our report.

If you have any questions, please contact Thomas Bennett, Assistant Inspector General for Audits at
(202) 418-0477.
                                 Table of Contents


                                                         Page


EXECUTIVE SUMMARY                                          1


REVIEW OBJECTIVE                                           2


REVIEW SCOPE                                               2


BACKGROUND                                                 3


OBSERVATIONS                                               4


RECOMMENDATIONS                                            6


APPENDIX 1 - Web Sites with Accessibility Observations     7


APPENDIX 2 – Management Response                           11
EXECUTIVE SUMMARY

The Federal Communications Commission (FCC) is increasingly using Information
Technology (IT) to conduct business and to disseminate information. As FCC Chairman
William Kennard recently stated: “We are at the cusp of the third greatest revolution in
mankind's history…, the Information Revolution. This third revolution rewards those
who control and process information. It gives them a competitive advantage, and a road
to national affluence. 1 ”

The purpose of this Special Review on Web Accessibility was to determine how effective
the FCC has been in providing access by the disabled to its Internet web sites. In effect,
the objective of the review was to determine how successful the Commission has been in
building “curb cuts2 ” to its own web pages.

Web accessibility refers to the ability of individuals with disabilities to have access to and
use of information and data that is comparable to the access to and use of information by
those without disabilities. In 1998, Congress amended the Rehabilitation Act of 1973 to
strengthen provisions covering access to information in the Federal sector for people with
disabilities. The amendment, Section 508 of the Rehabilitation Act, requires that all
federal agencies ensure that electronic and information technology is accessible to
employees and the public.

Web accessibility is a part of the Commission’s Disability Rights Major Initiative. A
Major Initiative is an item that the Commission considers, that stands out because of its
affect on a potentially large number of people, the politics involved, or its complicated
regulatory history. The FCC has included the Disabilities Rights Office, including web
accessibility, as a Major Initiative because the FCC has an obligation to ensure
that telecommunications are accessible and usable to the 54 million Americans with
disabilities.

During our review, we found that thirty-one (31) pages had some accessibility problems.
Some of the accessibility problems identified may make these pages difficult or
impossible for a disabled person to use. Therefore, we recommend that the problems we
identified be corrected and that web accessibility becomes an integral part of the
information systems’ development life cycle. These recommendations will correct
present problems and minimize the risk that future web accessibility problems will occur
in the FCC’s Internet web pages.

In a joint response to the draft report, the Chief, Consumer Information Bureau (CIB), the
Director, Office of Media Relations (OMR) and the Managing Director (MD) concurred


1      The Great Equalizer, Remarks by William E. Kennard, Chairman, Federal Communications
       Commission, at The Supercomm 2000 International Dinner, Capital City Club, Atlanta, Georgia,
       June 5, 2000.
2      Building Curb Cuts on the Information Highway, Address by Chairman William E. Kennard,
       Federal Communications Commission, Before the National Association of the Deaf, Norfolk,
       Virginia, July 3, 2000.


                                                 1
with OIG findings. They stated that “OMR and the Information Technology Center
(ITC) will ask the developers responsible for the identified pages to review and fix the
accessibility problems within 90 days, or submit a work plan and time table by February
1, 2001 for revising the pages.” Also, they pointed out the specific sections in the
Commission’s Systems Development Life Cycle that relate to web accessibility laws and
regulations. We have included a copy of the joint response in its entirety as Appendix 2
to this report.

REVIEW OBJECTIVE

The objective of this special review was to determine whether the FCC web sites are
accessible to disabled users. We sought to determine if the Commission would be able to
implement the Section 508 standards as related to web accessibility when they become
effective next year. To determine how the Commission responded to these laws and web
accessibility, we first reviewed its program on disability rights. Next, to determine the
Commission’s compliance with these laws and initiative as applied to web accessibility,
we tested over three hundred FCC Internet web pages using a series of automated tools.

To analyze Commission web sites, we used three commonly used accessibility analysis
tools, Bobby, Lynx, and Job Access With Speech (JAWS). Bobby is a web-based
automated tool that analyzes web pages for their accessibility to people with disabilities. 3
Lynx is a text browser for the World Wide Web. 4 The Department of Justices (DOJ)
Web Page Accessibility Checklist requires that an evaluator test a web page for
accessibility issues using a text-only browser. The DOJ guidelines specifically mention
Lynx as a text web browser that can be used for the review. 5 The JAWS analysis tool is a
screen reader developed to assist blind or visually impaired computer users access the
Internet and a variety of computer applications. With JAWS, blind or visually impaired
people can browse the web, read or write e-mail messages, re-calculate spread sheets or
access information in a database. 6 With Bobby, Lynx, and JAWS, we were able to
analyze FCC web pages to determine accessibility.

REVIEW SCOPE

The scope of this audit was limited to web pages on the FCC’s Internet site. No Intranet
sites were reviewed. This was because tools, such as Bobby, were based on the Internet
and could not access the FCC’s Intranet web pages. Sites using Secure Socket Layer
(SSL) security technology were only reviewed with Jaws. SSL is a web security
technology used to encrypt transmissions. The other tools available were unable to
analyze sites using SSL for web accessibility.


3      The Bobby analysis tool was obtained from the Center for Applied Special Technology (CAST)
       on their web page located at http://www.cast.org/bobby.
4      The Lynx tool was obtained at http://lynx.browser.org.
5      The DOJ guidelines are available from their web page located at
       http://www.usdoj.gov/crt/508/webpage.html.
6      The JAWS analysis tool (a fully functional demo) was obtained from the Henter-Joyce, Inc on
       their web page located at http:// www.hj.com/JAWS/JAWS37DemoOp.htm.


                                                 2
Another scope issue included the use of text only pages. If a web page provided a link to
an alternative, text only, page, we tested the text page only. We considered the text page
an acceptable alternative method of providing access to Commission information on the
Internet.

The special review was conducted at the Commission headquarters facility located at 445
12th Street, Southwest, Washington, DC. Fieldwork on this special review was conducted
from July 14, 2000 through September 19, 2000.

BACKGROUND

The Commission’s direction and efforts on web accessibility are based on Federal laws
that require that agency’s web pages be accessible to all. Federal web accessibility
requirements originated from Section 508 of the Rehabilitation Act of 1973 (Section
508). In 1998, Congress amended the Rehabilitation Act and strengthened provisions
covering access to information in the Federal sector for people with disabilities. Section
508 requires that the Federal government's electronic and information technology is
accessible to employees and the public. The law applies to all Federal agencies when
they develop, procure, maintain, or use electronic and information technology.

The scope of Section 508 is expansive. "Electronic and information technology"
potentially includes any technology that is used in the “automatic acquisition, storage,
manipulation, management, movement, control, display, switching, interchange,
transmission, or reception of data or information.” 7 This broad definition potentially
includes all telecommunications devices (including telephones, voice-mail systems,
pagers, facsimile machines, and related technology) and any technology used to convey,
transmit, or receive any kind of information. Section 508 also includes the web sites of
federal agencies. This amendment requires that all facets of information technology must
be made accessible to persons with disabilities. Section 508 became effective the day it
was enacted, August 7, 1998. Federal agencies are required to ensure that their electronic
and information technology is accessible to persons with disabilities.

To clarify the regulations, the statute designated the Architectural and Transportation
Barriers Compliance Board (Access Board) to develop standards for complying with
Section 508. The Access Board was originally required to complete its regulations by
February 7, 2000. However, final regulations have not been issued as of the date of this
report. The Access Board is expected to publish its final regulations by January, 2001.

Section 508 imposes important duties on Federal agencies. Although the Access Board
has not published its guidelines, Federal agencies must make their current information
and electronic technologies accessible to employees with disabilities and members of the
public with disabilities. Furthermore, Federal agencies should be incorporating the needs
of persons with disabilities when it makes any changes to its current information and
electronic technologies.


7      40 U.S.C. §1401(3) (definition of "information technology").


                                                  3
Secondly, Federal agencies had to conduct a self-evaluation and submit a report to the
Department of Justice (DOJ) regarding the accessibility of their electronic and
information technology by June 15, 1999. Thereafter, all Federal agencies must provide
information that the Attorney General deems necessary to assess the ongoing compliance
with Section 508 and must cooperate with the Attorney General's efforts at assessing this
compliance.

Section 508 also includes remedies to insure compliance. This amendment permits any
individual or government employee with a disability may file a complaint alleging that a
Federal department or agency fails to comply with Section 508. If a Federal agency
obtains electronic and information technology that does not comply with the standards
developed by the Access Board, it is subject to administrative complaints and private
lawsuits by employees and members of the public. This remedy is also effective six
months after the date of enactment final Access Board standards.

The private lawsuits allow for both private rights of action in court and for reasonable
attorneys’ fees. Although compensatory or punitive damages will not be available to
prevailing plaintiffs, equitable remedies, such as declaratory and injunctive relief, are
available.

OBSERVATIONS

This special review focused on two aspects of the FCC’s web accessibility. First, the
report analyzed the Commission’s formal disability rights program, especially as it relates
to web accessibility. Next, we tested over three hundred (300) FCC web pages to
determine the extent that the Commission has met accessibility guidelines.

The FCC’s Accessibility Program

The FCC has an active accessibility program. It is one of the Commission’s Major
Initiatives. The FCC chose disability rights as one of its major initiatives because people
with disabilities must have equal access to data in the information age. In addition, the
FCC has an obligation to ensure that telecommunications are accessible and usable to the
54 million Americans with disabilities. The FCC has a dedicated office, the Disability
Rights Office (DRO), which is dedicated to accessibility issues.

The DRO is part of the FCC's Consumer Information Bureau. It ensures that FCC
actions and policies promote access to telecommunications equipment and services by
individuals with disabilities. It provides technical assistance to consumers, to business
and other entities on their rights and responsibilities to provide disability access and
protect consumers with disabilities. Although primarily responsible for
telecommunications issues, the DRO also has a key role in web accessibility. It is
charged with ensuring that the Commission’s web site is as accessible as possible to all
people.

The ITC also plays a part in the determining that web sites comply with accessibility



                                              4
laws. The ITC performs the required accessibility assessments. In 1999, the ITC
completed the FCC Web Site Accessibility Report, which we reviewed. This report met
the DOJ Section 508 accessibility requirement. We reviewed this self-evaluation and
found it satisfactory.

The ITC also has an accessibility Customer Service Representative (CSR). She is the
focal point for accessibility issues. We discussed ITC’s efforts in web accessibility with
the accessibility CSR. She had a number of web accessibility programs underway. For
example, the CSR has arranged for accessibility training for FCC software developers.
Also, she obtained and installed the JAWS software for the use by developers for
accessibility evaluation.

Tests of Web Accessibility

The next step was to test compliance with Section 508 Federal Laws. Using the Bobby,
Lynx, and JAWS accessibility tools, we tested over three hundred (300) FCC Internet
web sites. These tools, as previously described, are either commonly used for
accessibility testing or are part of DOJ’s recommended web accessibility testing
guidelines. The use of all three tools enabled us to test for a variety of accessibility
issues.

Among the web sites we tested were the FCC’s home, or start, page, the Commissioners’
home pages, the home pages from all Bureaus and Offices, web pages from the
Commission’s Major Initiatives, and many of the FCC’s electronic filing (e-filing) and
public access pages. We chose pages that would provide us with a representative cross
section of the FCC’s Internet activity.

The majority of web pages had no accessibility problems. These included the
Commission’s home page, most of Commissioners’ web pages, and the majority of the
remaining pages tested. In most cases, alternative, text-only pages provided pages that
were free of accessibility problems.

However, we identified thirty-one (31) web pages with accessibility problems. A list of
these sites is included in the Appendix. These sites included Commissioner Furchtgott-
Roth’s home page, the home pages of five Bureaus and Offices, three pages identified
specifically with the Chairman. Ten e-filing & public access systems had accessibility
issues. These sites are likely to be visited by the public and others submitting filings
related to FCC proceedings or otherwise doing business with the Commission. Other
sites with accessibility problems included the 2000 Regulatory Fees page, the Jobs page,
and the Major Initiatives home page.

All three of the tools used identified accessibility problems with Commission web pages.
Some of the problems can be easily fixed, such as an unlabeled space bar, which would
cause Bobby to fail the page. Others were more serious. One site read its text in such a
manner that made it nearly impossible to follow. An e-filing site labeled many data entry
boxes with cryptic names such as “Graphic 979” that JAWS read. Another e-filing web



                                             5
page did not identify its login button when accessed by one of the accessibility tools.
These types of problems make the pages difficult, if not impossible, for a disabled person
to use.

The causes of these accessibility problems are varied. Many of these web pages appear
to be older sites that were developed before accessibility became a major issue. Other
web sites appear not to have been tested for accessibility issues before being put into
production.

If developers tested web pages for accessibility issues during the testing phase then these
problems could be identified before a site is placed into production. If web accessibility
became an integral part of the Testing Phase of the Systems Development Life Cycle
(SDLC), then many of these issues would be identified before the pages became part of
the Internet site.

RECOMMENDATIONS

We recommend that the Commission enhance its existing information systems and web
accessibility program by:

1. Fixing the accessibility problems in the Commission’s web pages identified in the
   Appendix, major errors first.

2. Integrating web accessibility into the Commission’s Systems Development Life
   Cycle. Making this an integral part of the development process will minimize the risk
   that future web accessibility problems will occur in the FCC’s Internet web pages.




                                             6
                                                                                  Appendix 1

                        Web Sites with Accessibility Observations


During our review, we found that thirty-one (31) Commission web pages had
accessibility observations. However, the number accessibility observations on FCC web
pages total more than thirty-one because some pages had multiple problems.

For each accessibility observation, we have identified the specific web pages on which
problems were identified. The identification includes a brief description (e.g., Bureau
Home Page) and the specific URL (e.g., fcc.gov/bureau/). We grouped the observations
according to the accessibility analysis tool used to identify the problem.

We classified the observations as major or minor. Major observations were those that
affected key components of the web page or were widespread. Examples of major
observations are the inability to use a button on an e-filing page or a large number of
“Bobby-identified” observations. Minor observations affect items on the periphery of the
web page. A logo problem is a good example of a minor observation. We also classified
a page with one or two “Bobby” observations as minor.

Web Sites with Observations Using Bobby

All web sites with “Bobby” observations had at least one Priority 1 accessibility error.
The developers of Bobby, the Center for Applied Special Technology, define Priority 1
accessibility errors as “problems that seriously affect the page's usability by people with
disabilities. 8 ” A Bobby Approved rating can only be granted to a site in which none of
the pages have Priority 1 accessibility errors. Even if the observation is minor, if its
Bobby classification is Priority 1, it fails this test. We only identified pages with Priority
1 errors.

1. International Bureau Electronic Filing System (IBFS) Login:
   haifoss.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/ibfsmenu.hts
   Observation Classification: Minor – One Priority 1 error

2. IBFS Account Maintenance:
    haifoss.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/ibfsmenu.hts?action=2&context=12
    Observation Classification: Minor – One Priority 1 error

3. Children’s Educational Television Home Page:
   svartifoss.fcc.gov:8080/prod/kidvid/prod/kidvid.htm
   Observation Classification: Major – Three Priority 1 errors

4. Office of Engineering and Technology (OET) Search Form:
   svartifoss.fcc.gov:8080/cgi-bin/ws.exe/prod/oet/els/forms/reports/Search_form.hts

8      http://www.cast.org/Bobby/index.cfm?i=325


                                               7
   Observation Classification: Minor – One Priority 1 error

5. International Bureau (IB) Home Page :
   fcc.gov/ib/
   Observation Classification: Major – Eight Priority 1 errors

6. Office of Legislative and Intergovernmental Affairs (OLIA) Home Page :
   fcc.gov/olia/
   Observation Classification: Minor – One Priority 1 error

7. Office of General Counsel (OGC) Home Page :
   fcc.gov/ogc/
    Observation Classification: Major – Five Priority 1 errors

8. Commissioner Furchtgott-Roth’s Home Page :
   fcc.gov/commissioners/ furchtgott-roth/
   Observation Classification: Major – Six Priority 1 errors

9. 2000 Regulatory Fees Home Page :
   fcc/gov/fees/2000regfees.html
   Observation Classification: Minor – One Priority 1 error

10. Office of Plans and Policy (OPP) Home Page :
    fcc.gov/opp/
    Observation Classification: Minor – One Priority 1 error

11. Office of the Managing Director (OMD) Home Page :
    fcc.gov/omd/
    Observation Classification: Major – Four Priority 1 errors

12. Kennard Development Initiative Home Page :
    fcc.gov/ib/developinitiative/
    Observation Classification: Major – Fourteen Priority 1 errors

13. International Visitors Program:
  fcc.gov/ib/ivp/
   Observation Classification: Major – Three Priority 1 errors

14. Index of Public Notices:
  fcc.gov/Bureaus/Consumer_Information/Public_Notices/
   Observation Classification: Minor – Two Priority 1 errors

15. Index of News Releases:
  fcc.gov/Bureaus/Consumer_Information/News_Releases/
   Observation Classification: Minor – Two Priority 1 errors




                                           8
16. Index of Orders:
  fcc.gov/Bureaus/Consumer_Information/Orders/
   Observation Classification: Minor – Two Priority 1 errors

17. FCC Phonebook:
   fcc.gov/phone.html
    Observation Classification: Major – Five Priority 1 errors

18. FCC Topical Index:
   fcc.gov/topindex/
    Observation Classification: Minor – One Priority 1 error

19. FCC Communications Commission Jobs Page :
   fcc.gov/jobs/
    Observation Classification: Major – Three Priority 1 errors

Web Sites with Observations Using Lynx

1.     Automated Reporting Management Information System (ARMIS) Page:
fcc.gov/ccb/armis
    Observation Classification: Major – Unable to access the page using Lynx

2. Children’s Educational Television Home Page :
   svartifoss.fcc.gov:8080/prod/kidvid/prod/kidvid.htm
   Observation Classification: Major – Unable to access the page using Lynx

3. Consumer Complaint Form for Telephone Related Issues:
   fcc.gov/cib/ccformpage.html
   Observation Classificatio n: Minor – Unable to read logo

4. Mass Media Consolidated Database System (CDBS) Public Access:
   svartifoss.fcc.gov:8080/prod/cdbs/pubacc/prod/cdbs_pa.htm
   Observation Classification: Major – Unable to access the page using Lynx

5. Multipoint Distribution System (MDS)/Instructional Television Fixed Service (ITFS)
   Data Entry Page :
   haifoss.fcc.gov/cg-bin/ws.exe/prod/mmb/mdsmenu.hts
   Observation Classification: Major – Unable to access the page using Lynx

6. Office of Engineering and Technology (OET) Search Form:
   svartifoss.fcc.gov:8080/cgi-bin/ws.exe/prod/oet/els/forms/reports/Search_form.hts
   Observation Classification: Major – Unable to access the page using Lynx

7.   IBFS Login:
     Haifoss.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/ibfsmenu.hts
     Observation Classification: Major – Unable to use button bars to login



                                           9
8.   IBFS Account Maintenance:
     Haifoss.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/ibfsmenu.hts?action=2&context=12
     Observation Classification: Major – Unable to use button bars to create account

9.   Electronic Comment Filing System (ECFS) Alternative Link :
     fcc.gov/e-file/nonssl.html
     Observation Classification: Major – Unable to access the page using Lynx

10. Electronic Tariff Filing System (ETFS) Home Page :
    svartifoss.fcc.gov:8080/prod/ccb/etfs/
    Observation Classification: Major – Unable to access the page using Lynx

Web Sites with Observations Using Jaws

1. FCC Major Initiatives:
   fcc.gov/major.html
   Observation Classification: Minor – Intermittently could not read text

2. FCC Resources:
   fcc.gov/resources.html
   Observation Classification: Minor – Intermittently could not read text

3. FCC Chairman Wm. Kennard Biography (text only):
   fcc.gov/commissioners/kennard/bio-text.html
   Observation Classification: Minor – Distorted text by reading spelling and
   grammatical errors literally and intermittently could not read text

4. FCC Chairman Wm. Kennard Column (text only):
   fcc.gov/commissioners/kennard/coltxt-text.html
       Observation Classification: Minor – Intermittently could not read text

5. IBFS Account Maintenance:
   haifoss.fcc.gov/cgi-bin/ws.exe/prod/ib/forms/ibfsmenu.hts?action=2&context=12
   Observation Classification: Major – Unable to read data entry labels. For
   example Jaws called the password box “graphic 979”

6. Universal Licensing System (ULS) Taxpayer Identification Number (TIN)/Call Sign
   Registration:
   wtbww05.fcc.gov/cgi-bin/UlsTinRegistration/ UlsTinRegistration.exe
   Observation Classification: Major – Unable to read data entry labels. For
   example Jaws called the Middle Initial box “tab edit.”




                                            10
Response

Concur. Accessibility is already integrated into the FCC’s Systems Development Life Cycle
(SDLC) methodology. In the Initiation Phase of the SDLC, the project owner must identify
applicable laws, federal statutes and regulatory standards. Section 508 of the Rehabilitation
Act 0f 1993 is a federal law that directly applies to all IT development activities.

In the Design Phase of the SDLC, the developer is required to prepare design specifications
to address any applicable Commission Rules, federal laws and regulations (e.g. accessibility).
The SDLC calls for a Requirement Trace-ability Matrix to be used to track identified
requirements, including accessibility requirements, through each phase of the life cycle in
order to determine that requirements are actually met in the implemented system. This
quality assurance tool ensures that accessibility is an integral part of the development
process.

In addition, the FCC has a standard accessibility contract clause and an attachment
(Requirements for Accessible Software Design) specifically addressing accessibility. This is
an additional checkpoint to ensure that accessibility is built into FCC IT systems.

OMR has contracted with a third party to evaluate the FCC web site and to provide an
assessment and recommendations on design changes that will allow the public to more
quickly and easily retrieve the information that the FCC has to offer on our web site.
Recommendations are to include a set of templates for new page designs, along with
recommended methods and text-only templates we can use to address current accessibility
requirements.

The Internet Working Group discusses accessibility issues on a regular basis at its monthly
meetings, and has incorporated accessible web-page design practices into its Web Site
Design Standards Working Paper.

Also, as part of the FCC’s Accessibility Plan, the Web Review Working Group will
incorporate the Section 508 Web accessibility standards into the FCC Web Site Standards
and develop a compliance mechanism to ensure that all FCC Web page development meet
the FCC Web Site Standards. It is projected that the standards and the compliance
mechanism will be in place within the next six months.

If you have any questions, please contact Rosalind Singleton, Section 508 Coordinator, at
202-418-2850.




                                                12
